<html>
<title> - BUSINESS MEETING</title>
<body><pre>[Senate Hearing 114-248]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 114-248

                            BUSINESS MEETING

=======================================================================

                                MEETING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 10, 2015

                               __________

  Printed for the use of the Committee on Environment and Public Works



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





       Available via the World Wide Web: http://www.gpo.gov/fdsys

                               __________
                               
                        U.S. GOVERNMENT PUBLISHING OFFICE 

99-913 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                              
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED FOURTEENTH CONGRESS
                             FIRST SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
DAVID VITTER, Louisiana              BARBARA BOXER, California
JOHN BARRASSO, Wyoming               THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
MIKE CRAPO, Idaho                    BERNARD SANDERS, Vermont
JOHN BOOZMAN, Arkansas               SHELDON WHITEHOUSE, Rhode Island
JEFF SESSIONS, Alabama               JEFF MERKLEY, Oregon
ROGER WICKER, Mississippi            KIRSTEN GILLIBRAND, New York
DEB FISCHER, Nebraska                CORY A. BOOKER, New Jersey
MIKE ROUNDS, South Dakota            EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska

                 Ryan Jackson, Majority Staff Director
               Bettina Poirier, Democratic Staff Director
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JUNE 10, 2015
                           OPENING STATEMENTS

Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     1
Boxer, Hon. Barbara, U.S. Senator from the State of California...     4
Barrasso, Hon. John, U.S. Senator from the State of Wyoming......    32
Cardin, Hon. Benjamin, U.S. Senator from the State of Maryland...    61
Carper, Hon. Thomas, U.S. Senator from the State of Delaware.....    67
Markey, Hon. Edward J., U.S. Senator from the State of 
  Massachusetts..................................................    84

                               LEGISLATION

The text of S. 1140, the Federal Water Quality Protection Act....    34
The text of Cardin-Boxer Amendment No. 1.........................    63
The text of Boxer Amendment No. 1................................    74
The text of Boxer Amendment No. 5................................    77
The text of Markey Amendment No. 1...............................    86
The text of Boxer Amendment No. 6................................    89

 
                            BUSINESS MEETING

                              ----------                              


                        WEDNESDAY, JUNE 10, 2015

                                        U.S. Senate
                  Committee on Environment and Public Works
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:33 a.m. in room 
406, Dirksen Senate Building, Hon. James Inhofe (chairman of 
the committee) presiding.
    Present: Senators Inhofe, Barrasso, Capito, Crapo, Boozman, 
Wicker, Fischer. Rounds, Sullivan, Boxer, Carper, Cardin, 
Whitehouse, Merkley, and Markey.

            OPENING STATEMENT OF HON. JAMES INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Our meeting will come to order.
    We do not have a lot of people here yet. We are going to go 
ahead and Senator Boxer and I will do our opening statements. 
Then we will wait for our quorum to show up.
    I have made addressing EPA regulatory overreach one of my 
top priorities as Chairman of the Senate Environment and Public 
Works Committee. That is why I am particularly glad that today 
we are marking up the bipartisan S. 1140, the Federal Water 
Quality Protection Act after holding a bicameral oversight 
hearing in February, three field hearings in Alaska and 
Nebraska, and a legislative hearing.
    Two weeks ago, EPA issued a final rule that expands Federal 
authority under the Clean Water Act by changing the definition 
of ``waters of the United States.'' Absent legislation to stop 
it, this new rule will go into effect later this summer.
    EPA took this action despite the fact that according, to 
the Corps of Engineers, 60 percent of the comments, during the 
comment period, opposed the rule, including 32 States, the U.S. 
Conference of Mayors, the National League of Cities and the 
National Association of Counties. We have all these people 
opposing this very stringent rule.
    I have to add at this point that in my State of Oklahoma, 
which I do not think is much different from any other State, 
our Farm Bureau head, Tom Buchanan, says the problems the 
farmers and ranchers in Oklahoma face have nothing to do with 
anything you find in the farm bill. It is all overregulation by 
the EPA and the water regulations that scare them the most. 
That is their No. 1 priority right now.
    Fortunately, this bipartisan legislation will stop the 
final rule and make EPA and the Corps of Engineers go back and 
redo it. This time, they cannot avoid consultation with States 
and local governments. They will have to do a full economic 
analysis, including an unfunded mandates analysis, and they 
will have to review the impacts on small businesses and small 
local government.
    These are process steps they skipped because they claim 
that a definition has no direct costs, a claim strongly 
disputed by States, local governments, and the Small Business 
Administration Office of Advocacy. We know that from the 
hearing we had here in these chambers. This legislation also 
prevents EPA from issuing a new rule that simply repeats their 
regulatory overreach.
    Unlike the rule they issued 2 weeks ago, in a revised rule, 
EPA will not be able to claim the power to control land and 
water use based on use of water by birds or other animals, the 
seepage of water into the ground, water storage, and the 
overland flow of flood water. At the same time, the legislation 
encourages EPA to regulate streams that actually carry 
pollutants to navigable water and wetlands next to streams and 
rivers that filter pollutants.
    Before some of you came in, I made the comment that in my 
State of Oklahoma, the president of the Oklahoma Farm Bureau, 
Tom Buchanan, says their No. 1 concern is this issue. I know 
that is probably true in Mississippi and other States too. We 
are going to try to correct that.
    Senator Boxer.
    [The prepared statement of Senator Inhofe follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Thank you so much, Mr. Chairman.
    You heard my chairman say that his priority is going after 
EPA overreach. His priority is going after the Environmental 
Protection Agency. It is his right, as he and I have said 
often. Elections have consequences. When I had the gavel, we 
did a lot of different things here. He has the gavel and it is 
his right.
    I want to remind colleagues that this is the Environment 
Committee and not the anti-environment committee. I hope we 
will remember that our charge is to protect the people of 
America from harmful pollution.
    Today, we are considering legislation that would undermine 
one of our Nation's landmark laws, the Clean Water Act, and 
roll back protections for the American people, their drinking 
water. It will actually roll back protections for 117 million 
people.
    We talk a lot about national security, as we should. 
Nothing is more important than protecting the lives of the 
American people. Members of this Committee should understand 
that when we weaken the Clean Water Act, as this bill will do, 
we are putting the lives of our people in danger.
    The Clean Water Act prevents the uncontrolled pollution of 
the streams, rivers, and lakes where our children swim and that 
provide drinking water to millions of Americans. If the Clean 
Water Act does not apply, polluters can dump raw sewage that 
would sicken children swimming in contaminated waters.
    Factories can discharge industrial waste containing heavy 
metals, such as arsenic, lead, and selenium. Drilling companies 
can discharge wastewater containing known carcinogens like 
benzene and chromium-6. We need a strong Clean Water Act to 
ensure this does not happen.
    Decades ago, the United States experienced widespread 
damage and degradation to our environment. The Cuyahoga River 
in Cleveland, Ohio was on fire and our lakes were dying from 
pollution. In 1972, Congress passed the Clean Water Act.
    Unfortunately, the legislation before us today would take 
us in the wrong direction by removing protections and creating 
more confusion and uncertainty about which waters are 
protected. That is why over 80 scientists with expertise in the 
importance of streams and wetlands, as well as the Society for 
Freshwater Science, have written to us opposing this bill.
    We have also received opposition letters from numerous 
sportsmen groups, including the American Fly Fishing Trade 
Association, Backcountry Hunters and Anglers, Izaak Walton 
League of America, Theodore Roosevelt Conservation Partnership, 
Trout Unlimited and many other groups.
    I ask unanimous consent to place all of them into the 
record.
    Senator Inhofe. Without objection.
    [The referenced information follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
        
    Senator Boxer. These groups understand the important link 
between clean water and outdoor recreation. These groups work 
with Republicans and Democrats alike and they fiercely oppose 
this bill.
    Over 40 leading law professors that study, teach, and write 
about the Clean Water Act have concluded ``S. 1140 would 
constitute a massive weakening of the Clean Water Act.''
    I ask unanimous consent to enter these and other letters of 
opposition into the record.
    Senator Inhofe. Without objection.
    [The referenced information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Boxer. The final Clean Water Rule that S. 1140 will 
block clearly protects streams that provide drinking water to 
millions of Americans while establishing exemptions for 
numerous water bodies that do not impact downstream water 
quality.
    For the first time, Federal regulations will explicitly 
exclude numerous types of ditches. You are going to hear all 
kinds of misinformation on this. This rule excludes numerous 
types of ditches, stormwater collection and treatment systems, 
artificial ponds, water-filled depressions, puddles, and 
recycling water facilities.
    If the Barrasso bill, S. 1140, passes, all of these new 
exemptions will be blocked. This bill would create more 
confusion for businesses and landowners by taking away new 
exemptions and sending EPA and the Corps back to square one.
    After years of uncertainty following two Supreme Court 
decisions, we should not pass legislation that would create 
more confusion and invite years of new litigation. The Obama 
administration's efforts are about protecting drinking water 
for American families and businesses, and the process, alluded 
to by my chairman, has been open and inclusive. More than 1 
million comments were received during a comment period that 
lasted over 200 days, and over 400 outreach meetings with 
stakeholders and State and local governments were conducted.
    Instead of advancing a bill that would allow more pollution 
of our waterways, we should listen to the wide variety of 
stakeholders that support the proposed clean water rule. A poll 
released last month shows that 78 percent of the people think 
Congress should allow the rule to move forward but not in this 
committee. Who are they listening to? I will leave that to you 
to figure out.
    It is time to restore much-needed certainty, consistency, 
and effectiveness and S. 1140 does just the opposite. It would 
result in further delay, more uncertainty, and less protection 
for the American people.
    [The prepared statement of Senator Boxer follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Inhofe. Thank you, Senator Boxer.
    We have reached an agreement that we are going to consider 
the Manager's Amendment to S. 1140 with members amending that 
document. These amendments that come in will be to that 
document I just described.
    I want to ask members to keep in mind, we have to have a 
quorum of 11 in order to pass this, but our amendments only 
need 7. Right now we have 8, so we are going to go through 
these as quickly as possible. We have 11 amendments out there 
and I want to ask which members seek recognition to each 
amendment and allow each member to call up his own amendment. 
We can have committee counsel available at the table to answer 
questions. At the conclusion of the members' statements and 
questions, we will vote on each amendment.
    I would like to start by asking Senator Barrasso if he 
would like to make comments about the underlying bill which is 
the Manager's Amendment.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Thank you very much, Mr. Chairman. I do 
appreciate your holding a markup on this bipartisan, pro-
environmental protection, pro-small business legislation.
    S. 1140, the Federal Water Quality Protection Act is 
legislation I introduced along with Democratic Senators, 
Senator Donnelly, Heitkamp, Manchin, along with other members 
of this committee, including you, Mr. Chairman. This is 
legislation that will protect our Nation's navigable waterways, 
the streams and wetlands that help keep our navigable waters 
clean.
    This bill is a testament to the hard work that both sides 
of the aisle have done in achieving an agreement on an 
environmental protection bill. Our rivers, lakes, wetlands and 
other waterways are among America's most treasured resources.
    In my home State of Wyoming, we have some of the most 
beautiful rivers in the world, the Snake River, the Wind River 
and dozens of others. The people of Wyoming voted to keep these 
waterways safe and pristine for their children and 
grandchildren. They understand there is a right way and a wrong 
way to do this. It is possible to have reasonable regulations 
to help preserve our waterways while still respecting the 
difference between State waters and Federal waters.
    Unfortunately, the rule the EPA has released does not do 
that. In fact, the rule is actually worse than the proposed 
rule. This is important because many of my colleagues have been 
waiting for the rule to be released and gave the Administration 
the benefit of the doubt.
    I am here to tell you that no matter what concessions EPA 
has claimed, they added new provisions that greatly expand 
their authority. For example, instead of clarifying the 
difference between a stream and erosion of the land, the rule 
defines tributaries to include any place where EPA thinks it 
sees an ordinary high water mark. What looks like, not what is, 
but the EPA says what looks like a high water mark.
    Even worse, EPA proposes to make these decisions from their 
desks using aerial photographs and laser generated images 
claiming a field visit is not necessary. Under the rule, the 
Environmental Protection Agency also has the power to regulate 
something as ``waters of the United States'' if it falls within 
a 100-year floodplain or if it is within 400 feet of navigable 
water or a tributary and EPA claims there is a significant 
nexus.
    Under this rule, significant nexus means a water feature 
that provides ``life-cycle dependent aquatic habitat for a 
species.'' If you start drawing 4,000 foot circles around 
everything the EPA identifies as a tributary and everywhere 
there is a potential aquatic habitat for birds and fish in that 
area, I expect nearly the whole Country would be included.
    Mr. Chairman, this is not just me, this is from the 
economic analysis of the EPA-Army Clean Water Rule, May 2015, 
this year. This is what the EPA says to confirm my suspicions. 
``The agencies have determined that the vast majority of the 
Nation's water,'' the Nation's water, not the States' water, 
not the counties' water, not local water, but the Nation's 
water, they think they own it all, ``the Nation's water 
features are located within 4,000 feet of a covered tributary, 
traditional navigable water, interState water or territorial 
sea. We believe, therefore, that very few waters will be 
located outside of 4,000 feet and within 100-year floodplain.'' 
They believe they can control it all.
    Mr. Chairman, in addition, the final rule exempts puddles. 
They define that as very small, shallow and highly transitory 
pools of water that forms on pavements, that is good, or upland 
during and immediately after a rainstorm or similar 
precipitation event. It does specifically include other pools 
of water created by rain such as prairie potholes, vernal 
pools, even if the land where these pools of water form is far 
away from any navigable water or even a tributary.
    Since the Supreme Court issued its 2001 decision in the 
Swank case, none of these isolated pools of water have been 
found to be jurisdictional applying a case by case analysis. 
Under this new regulation, nearly all of them will be 
considered waters of the United States, giving the 
Environmental Protection Agency the power to regulate what you 
do on that land.
    These provisions are sweeping and will create uncertainty 
in communities all across America. Rather than support an EPA 
rule that is actually worse than the proposed rule and does not 
represent the interests of our farmers, ranchers, families and 
communities, let us move forward with this bipartisan Federal 
Water Quality Protection Act to assure the public that we hear 
and we understand their concerns. At the same time, let us give 
EPA and the Army Corps the certainty they need to confidently 
move forward with a new rule that truly reflects the needs of 
the constituents that we represent.
    Thank you, Mr. Chairman. I urge my colleagues to vote yes 
on this bipartisan piece of legislation.
    [The text of S. 1140 follow:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
        Senator Inhofe. Thank you, Senator Barrasso.
    Does any member seek recognition for an amendment? Senator 
Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    I would offer Cardin-Boxer Amendment No. 1.
    Senator Inhofe. Cardin-Boxer Amendment No. 1, you are 
recognized.

          OPENING STATEMENT OF HON. BENJAMIN CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. Thank you.
    Mr. Chairman and members of the committee, our 
responsibility is to make sure that we protect the public from 
polluters. So when we talk about burdens on different segments 
and so forth, we want to make sure our regulatory structure is 
fair to all.
    Make no mistake, our burden and our responsibility is on 
the public health of the people of this Country. That is why on 
a bipartisan basis, we enacted the Clean Water Act to protect 
public health. We do not want to go back to rivers catching 
fire and the circumstances that Senator Boxer alluded to in her 
opening comments.
    I oppose the bill that is before us. Two weeks ago, the 
Environmental Protection Agency and the Army Corps responded to 
the challenge laid down by the Supreme Court a decade ago. That 
decision created uncertainty in case by case determinations as 
to what waters would be regulated under the Clean Water Act and 
reinstated a science-based protection using sound, peer 
reviewed scientific data for clean water.
    That is exactly what we want them to do, to use science, to 
use the best data available to protect the public and make sure 
that we have clean water.
    For the first time ever, the regulation spells out with 
clarity those waters that are not subject to the Clean Water 
Act and adopted a narrower working definition of waters of the 
U.S. than was the working use prior to the Supreme Court 
decision. They listened to the comments made during the review 
process as Senator Boxer pointed out. They listened to the 
million comments made and tailored a rule that complies with 
its responsibility to protect the public in regards to clean 
water. They listened to the reasonable concerns expressed by 
the stakeholders.
    Therefore, the legislation we have before us, if not 
amended, will send EPA and the Army Corps back to the drawing 
board and create uncertainty once again where there will not be 
clarity as to what is subject to the Clean Water Act because we 
have denied the agencies moving forward and Congress has not 
adopted the certainty as to what is subject to the Clean Water 
regulations. We are talking about wetlands and tributaries that 
affect the clean water.
    The amendment I have offered, first, corrects a mistake in 
the underlying bill. The goal of the Clean Water Act is not as 
stated in the bill before us, to protect traditional navigable 
waters from water pollution. That is not the goal stated in the 
Clean Water Act. The goal is to restore and maintain the 
chemical, physical and biological integrity of the Nation's 
waters.
    My amendment corrects the misstatement contained in the 
underlying bill but then goes to I think the heart of what I 
hope all of us would agree. That is, the provisions will not be 
effective if the Administrator and Secretary determine the 
implementation of the provisions is likely to increase the 
probability of exposure to discharges of toxins and pollutants 
in amounts that could adversely impact the health and welfare 
of persons served by public drinking water systems, including 
infants, children, pregnant women, the elderly and other 
vulnerable populations. I say that because we are all subject 
to having clean water in our environment but those particularly 
susceptible are the most vulnerable, our children, our elderly 
and vulnerable populations.
    Second, the amendment says if it would compromise the 
safety or heighten the risk of illness from consumption of fish 
or swimming, that also would be taken into consideration as far 
as the implementation of this bill.
    Mr. Chairman, I would hope my colleagues would accept this 
amendment. I remember in some of my previous years in the House 
of Representatives, Democrats and Republicans joined together 
in the proud tradition of this Country to protect the public. 
In every Congress, we looked at ways we could buildupon the 
success of the past to protect public health so communities 
felt safe in their community with clean water, and I might also 
add clean air. I think my amendment makes it clear that we will 
put public health first and carry out the burden that we have 
to protect the public health.
    [The text of Cardin-Boxer Amendment No. 1 follow:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
    Senator Inhofe. Thank you, Senator Cardin.
    Let me note a little bit on what he said. Senator Cardin 
and I were elected to the House in the same year. I remember 
very well and believe we have been doing just what you 
suggested over those some 28 years now.
    I would only observe that this amendment does not amend the 
Clean Water Act but as you point out, sends it back to have 
areas where we feel it needs a lot of surgery worked out. I 
also am a little concerned about when we give the power to the 
Administrator and the Corps. I am not sure I have as much faith 
as you in their having that power.
    I would ask for anyone who wants to be heard on this 
amendment? Senator Carper.

           OPENING STATEMENT OF HON. THOMAS CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Mr. Chairman.
    Before us we have a bill authored by Senator Barrasso, who 
I think is one of our more thoughtful people, who is delightful 
to work with and to know. While I cannot support his proposal, 
I would say there are several aspects of his bill that do have 
merit. I want to mention a couple of them.
    I think a report to Congress on how to ensure communities 
are not harmed intentionally by this new rule would be helpful 
to ensure EPA stays on the right track. I also believe that the 
concept of maps showing watersheds that must be protected is a 
good one as long as it is done thoroughly and carefully.
    I commend him for trying to make an honest effort to 
address a couple of areas that need to be addressed.
    Having said that, I have not been in lock step with EPA, 
none of us have, but I will say this. Gina McCarthy, the 
Administrator, has made a strong effort to be as open as I 
think she and the agency can be.
    The idea of having a 200 day period in which to receive 
input is extraordinary. They did not just get a couple thousand 
recommendations for changes, they got a million. I think they 
made an honest effort to try to incorporate those into this 
final rule.
    Is it perfect? No way, nothing is perfect. While we strive 
for perfection as our goal, we cannot be perfect. I am going to 
support Ben's amendment. I hope the rest of us will also.
    At the end of the day, some of the things that Senator 
Barrasso has called for in his bill deserve support. While 
there are other pieces of the legislation that will not allow 
me to support it, I commend him for that effort.
    I thank you, Mr. Chairman.
    [The prepared statement of Senator Carper follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
    Senator Inhofe. You will have that opportunity.
    Senator Boxer. Let us go back and forth here.
    Senator Boxer. That is fine.
    Senator Inhofe. Those who want to be heard on the amendment 
from this side?
    Senator Boxer.
    Senator Boxer. Thank you so much.
    I want to thank Senator Cardin for his work on this.
    Mr. Chairman, here are the facts. These are the facts. This 
is not made up. This comes from American Rivers.
    The EPA estimates that up to 3.5 million people fall ill 
from swimming in waters contaminated by sanitary sewer 
overflows every year. If we start taking streams out of this 
regulatory reach, if we start taking waters out, people can 
dump their sewage in there without any type of permit. We will 
see this number go up, including the 1.5 million people in 
California every year on the beaches.
    We have some pretty strict regulations but even with that, 
people get sick from the untreated sewage. There are pathogens 
in the water. Cryptosporidium contaminated the drinking water 
supply in Milwaukee. In 1993, 400,000 people became ill and 100 
people died because they were vulnerable.
    Why on earth does the Environment Committee want to remove 
bodies of water from this rule where they can become filled 
with these pathogens? Toxic algae blooms, I know my friend has 
had direct experience with that. In addition to pathogens, the 
high nutrient levels in untreated sewage can cause illness when 
they create algae blooms. Symptoms from exposure include memory 
loss, vomiting, diarrhea, abdominal pain, liver failure, 
respiratory paralysis and even coma.
    We are not talking about bureaucracy and EPA overreach. We 
are talking about how we can protect our people from these 
illnesses.
    I will conclude with this, I think the Cardin amendment 
strikes a provision in S. 1140 that would essentially rewrite 
the objective of the Clean Water Act. My friend is right. It 
sends the rule back. But essentially, because frankly, I do not 
think the American people would stand for it 1 second if you 
tried to repeal the Clean Water Act, you would be voted out of 
office. They do not do that.
    They play with this rule and rewrite the historic objective 
of the Act. The historic objective of the Act supported by 
Republicans and Democrats overwhelmingly 40 years ago says, we 
want to restore and maintain the chemical, physical and 
biological integrity of the Nation's waters. This is what 
Senator Cardin does. He restores this important definition.
    The amendment also says that the Act is null and void if it 
would increase exposure to toxic pollution or increase the 
likelihood that people will get sick from consuming fish or 
swimming in recreational waters. Colleagues, that is the least 
we can do, protect peoples' health.
    The amendment opposed the historic focus of the Clean Water 
Act and it does not undo the many achievements of the Act over 
the last four decades. I hope we can at least vote yes. 
Otherwise, the American people will see that a Clean Water Act 
has protected them, even though it certainly has not been 
perfect. People have still gotten sick but we have protected 
people. We are one of the best in the world in this and that it 
is not being rescinded in part by this law. I urge a yes vote.
    Senator Inhofe. Thank you, Senator Boxer.
    Before recognizing Senator Barrasso to respond, does anyone 
else wish to be heard on this amendment?
    Senator Barrasso.
    Senator Barrasso. Thank you, Mr. Chairman.
    First, I want to specifically thank Senator Carper for his 
fine comments. We have worked closely together on a number of 
issues. He is an honest broker, continues to be, and it is a 
privilege to serve with him as a former Governor, a former U.S. 
Member of Congress and now as a Senator. He is someone that I 
think really understands his State, the needs and concerns 
there. I appreciate his kind comments.
    Mr. Chairman, I do need to oppose the Cardin-Boxer 
Amendment No. 1. The bill I propose does not amend the Clean 
Water Act, so it does not amend Section 101 of the Act. It is 
not necessary to reState those goals.
    In addition, even though rivers and streams that are 
sources of drinking water are clearly protected by S. 1140, as 
are the wetlands next to those rivers and streams that serve to 
filter pollutants, this amendment, the Cardin-Boxer amendment, 
gives EPA the authority to vacate the entire bill with a 
spurious determination which is my specific concern.
    This would result in the status quo, which is unacceptable 
to cities, towns, farmers, ranchers, small business owners, 
hardworking taxpayers and those who want clean water and their 
livelihoods all across the Country.
    I would urge a no vote on this amendment.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Barrasso.
    The Cardin-Boxer Amendment is before us.
    Senator Cardin. Can I close?
    Senator Inhofe. Of course.
    Senator Cardin. Thank you, Mr. Chairman. I appreciate the 
opportunity to close.
    Let me say, I share Senator Carper's observations that we 
need to work together. Senator Barrasso and I serve not only on 
this committee together but also on the Senate Foreign 
Relations Committee. We have been able to work together and 
sometimes we disagree.
    Let me just point out what the bill says. It says, ``The 
Federal Water Pollution Act is an Act to protect traditional 
navigable waters from water pollution.'' In fact, what the 
Clean Water Act says is it is ``to restore and maintain the 
chemical, physical and biological integrity of the Nation's 
waters.'' That is what the Act says.
    Senator Barrasso, your bill changes the Clean Water Act's 
fundamental principle to protect public health. You are 
changing it to say ``to protect traditional navigable waters.'' 
That is a change, a significant change, a fundamental change in 
the Clean Water Act.
    The reason why we underscored that with the rest of this 
bill is because this is what the Clean Water Act is about. The 
Clean Water Act is about people who swim who know that we have 
regulations to protect their health. People who live near water 
know that we have regulations and a law to protect their health 
and that clean water is a national priority. That is what the 
Clean Water Act says.
    I understand Senator Barrasso's intent, but that is not 
what the bill says. The bill changes the fundamental direction 
of the Clean Water Act in addition to stopping the agencies 
from moving forward on its regulations.
    I would urge my colleagues to adopt this amendment.
    Senator Inhofe. Thank you, Senator Cardin.
    Is there a motion on the Cardin-Boxer Amendment No. 1?
    Senator Boxer. So moved.
    Senator Inhofe. Second.
    All in favor, say aye.
    [Chorus of ayes.]
    Senator Inhofe. Opposed, no.
    [Chorus of noes.]
    Senator Inhofe. A roll call has been requested. The Clerk 
will call the roll.
    The Clerk. Mr. Barrasso?
    Senator Barrasso. No.
    The Clerk. Mr. Booker?
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Boozman?
    Senator Boozman. No.
    The Clerk. Mrs. Boxer?
    Senator Boxer. Aye.
    The Clerk. Mrs. Capito?
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Cardin?
    Senator Cardin. Aye.
    The Clerk. Mr. Carper?
    Senator Carper. Aye.
    The Clerk. Mr. Crapo?
    Senator Crapo. No.
    The Clerk. Mrs. Fischer?
    Senator Fischer. No.
    The Clerk. Mrs. Gillibrand?
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Markey?
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Merkley?
    Senator Merkley. Aye.
    The Clerk. Mr. Rounds?
    Senator Rounds. No.
    The Clerk. Mr. Sanders?
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Sessions?
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Sullivan?
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Vitter?
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Whitehouse?
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Wicker?
    Senator Wicker. No.
    Senator Inhofe. I would remind the Clerk he did not call my 
name.
    The Clerk. I am sorry. Mr. Chairman?
    Senator Inhofe. No.
    The Clerk. The yeas are 9 and the nays are 11.
    Senator Inhofe. The amendment is not accepted.
    Senator Carper. I would ask unanimous consent that my 
statement be entered for the record at the appropriate place.
    Senator Inhofe. Without objection, of course.
    Senator Carper. I am going to run back to Homeland 
Security. We are trying to get a TSA Administrator confirmed. I 
am going to run and do that.
    Thanks so much.
    Senator Inhofe. That is important.
    Do other Senators have amendments?
    Senator Boxer. I do.
    Senator Inhofe. Senator Boxer.
    Senator Boxer. I would call up Boxer No. 1.
    Senator Inhofe. Boxer No. 1. Senator Boxer.
    Senator Boxer. Thank you, Mr. Chairman.
    My amendment ensures that the Secretary of the Army and the 
Administrator of the EPA retain their authority to protect our 
Nation's drinking water supply.
    The Clean Water Act is a critical tool for preventing 
pollution of water bodies that provide drinking water. The 
final Clean Water Rule protects streams and wetlands that 
provide drinking water to 1 in 3 Americans. S. 1140, the bill 
before us, would block this important rule and the protection 
it provides for our drinking water.
    This amendment is very simple. It simply says that nothing 
in this bill affects the Secretary and Administrator's 
authority to protect sources of drinking water. Colleagues, 
that is the least we can do, the least we can do.
    I hope we can all agree the EPA and the Corps should retain 
the authority to ensure that our drinking water supply is safe 
and clean.
    I urge my colleagues to vote yes on this amendment.
    [The text of Boxer Amendment No. 1 follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Inhofe. Thank you, Senator Boxer.
    Let me observe that I have the same problem with this 
amendment that I had with the last one, because you are saying 
they are without a lot of guidelines, able to have that power. 
I would object to this amendment.
    Does anyone want to be heard? Senator Cardin.
    Senator Cardin. Thank you.
    I support the Boxer Amendment. Mr. Chairman, when our 
constituents turn on their tap or go to their wells, they 
expect the water they are drinking is safe. I do not know of a 
more fundamental responsibility we have than to make sure that, 
in fact, is real.
    The truth is that as we are chipping away at the 
protections we have on clean water and clean air. A lot of 
assumptions made by people in this Country are not necessarily 
accurate. You have seen recent reports that are challenging, in 
some cases, the safety of drinking water.
    This amendment is so straightforward and commonsense. It 
does not stop what Senator Barrasso is trying to do in his 
bill. It just says we have to guarantee we are doing everything 
we possibly can to make sure when you turn on the tap, the 
water is safe.
    It seems to me that at a bare minimum, we should have broad 
support, if not unanimous support, for this amendment. I do not 
quite understand the Chair's objections to saying that the 
agency responsible for clean water, you cannot trust to make 
sure we have safe drinking water. I do not understand the logic 
of that argument.
    Senator Inhofe. Thank you, Senator Cardin.
    Do others want to be heard? If not, Boxer Amendment No. 1 
is before us. A roll call has been requested. The Clerk will 
call the roll.
    The Clerk. Mr. Barrasso?
    Senator Barrasso. No.
    The Clerk. Mr. Booker?
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Boozman?
    Senator Boozman. No.
    The Clerk. Mrs. Boxer?
    Senator Boxer. Aye.
    The Clerk. Mrs. Capito?
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Cardin?
    Senator Cardin. Aye.
    The Clerk. Mr. Carper?
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Crapo?
    Senator Crapo. No.
    The Clerk. Mrs. Fischer?
    Senator Fischer. No.
    The Clerk. Mrs. Gillibrand?
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Markey?
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Merkley?
    Senator Merkley. Aye.
    The Clerk. Mr. Rounds?
    Senator Rounds. No.
    The Clerk. Mr. Sanders?
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Sessions?
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Sullivan?
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Vitter?
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Whitehouse?
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Wicker?
    Senator Wicker. No.
    The Clerk. Mr. Chairman?
    Senator Inhofe. No.
    The Clerk. Mr. Chairman, the yeas are 9 and the nays are 
11.
    Senator Inhofe. The amendment is not agreed to.
    Are there other amendments?
    Senator Boxer. Yes.
    Senator Inhofe. Senator Boxer?
    Senator Boxer. Thank you so much.
    I know everyone has things to do. I had nine amendments but 
I am only offering three. I know they are painful for you, but 
we will make it quick. I have Boxer Amendment No. 5.
    Senator Inhofe. Boxer Amendment No. 5, thank you.
    Senator Boxer. This amendment simply says the bill is null 
and void if EPA or the Corps determines that implementation of 
the bill will increase costs. That should be a good one for you 
guys and gals. It would lengthen the time to obtain a permit or 
perpetuate the lack of regulatory predictability and certainty.
    Stakeholders have waited far too long for EPA and the Corps 
to address the confusion created by recent Supreme Court cases. 
Now that the agencies have acted, we should not start the 
process over as this bill requires.
    S. 1140 sends EPA and the Corps back to square one while 
adding new and confusing terms that will have to be interpreted 
and likely will be litigated. They will go straight to the 
courthouse door. I can assure you of that. Environmentalists 
have a record of winning, even in the U.S. Supreme Court as we 
did on climate and many other things.
    S. 1140 could result in years of delay, confusion and 
uncertainty. My amendment ensures that the new requirements of 
this bill will not add to the problem by decreasing 
predictability and making it more difficult and time consuming 
to get a permit.
    If you support certainty and predictability, and if you do 
not want to see more cost associated with this, I hope you will 
support Boxer Amendment No. 5.
    [The text of Boxer Amendment No. 5 follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Senator Inhofe. Thank you, Senator Boxer.
    I would observe the amendment gives the EPA and the Corps 
the discretion to decide whether or not any of these three 
standards are met. I believe that would render S. 1140 
ineffective, in my opinion.
    Do others want to be heard? Senator Cardin?
    Senator Cardin. Mr. Chairman, I will be brief.
    I now have the drift of your concerns. I appreciate that. 
You do not want to give the discretion to the Environmental 
Protection Agency or the Army Corps to implement the Clean 
Water Act.
    Therefore, I think it is incumbent upon us to write the 
regulation and put it into law and for us to take on the 
responsibility that would normally go with an agency. I do not 
think we can do that, but I do not know how this committee can 
act by the Majority in saying we are not going to give the 
agency the ability to carry out our intent through its actions 
because we do not believe they will do that.
    The Majority is saying that to us in a way that is 
consistent with what we intend and yet we are not prepared to 
enact a definitive statute as to how the law operates. You are 
sending it back. To me, what you are doing is just delaying and 
delaying and delaying. We have delayed it over a decade.
    You are not doing any favors to the stakeholders who have 
to operate under the Clean Water Act. They need certainty. One 
thing I have learned, when I talk to different business groups, 
residents and people, they want certainty. They say, give us 
the rules and we will operate under the rules.
    Yet, Mr. Chairman, you are saying you do not want to give 
the ability of the agency to bring certainty and you are not 
prepared to give the certainty by statute. That puts us in a 
terrible position.
    I am just expressing my frustration and support of the 
Boxer Amendment.
    Senator Inhofe. Let me respond by expressing my 
frustration.
    It might be that you feel that the Administrator, the Corps 
and the others are in a position to make these determinations 
unilaterally without the input of someone who is elected. If 
you talk to any of the farmers or ranchers in Oklahoma and you 
will find they look to us, not the unelected bureaucrats, for 
the interpretations. I would object to it.
    Does anyone else want to be heard?
    Senator Boxer. I would just close.
    Senator Inhofe. Yes, of course. Senator Boxer.
    Senator Boxer. I hear over and over again from Republican 
friends that they do not want to have rules or laws that 
increase costs. All we are saying is if there is an increase in 
costs and if it is going to take more time to obtain a permit 
or perpetuate the lack of regulatory predictability, the bill 
is null and void.
    If you want to vote no against predictability and costs, 
high costs, go ahead. I am sure you will, but just know that it 
is kind of unusual to see my Republican friends voting against 
something that clearly says, if it is going to increase costs, 
it should be null and void.
    Let us vote and see. Maybe I will be shocked.
    Senator Inhofe. Senator Boxer, thank you very much.
    Senator Rounds. Mr. Chairman?
    Senator Inhofe. Yes, Senator Rounds?
    Senator Rounds. I think the Ranking Member has perhaps hit 
on what is one of the key issues that many of us feel has to be 
addressed. That is, in this particular case, this amendment 
would actually ask the rulemakers to decide whether or not they 
could void a law passed by Congress and allow them to recreate 
the rules the way they want to interpret them without any 
oversight from Congress.
    In other words, this would suggest the agency itself could 
look at our legislation as passed and then, if it increases 
costs, in their determination, they could then eliminate the 
direction of the Congress of the United States.
    That is wrong. That is exactly getting to the heart of the 
problem of what is going on with the bureaucracy in Washington 
today. They are creating 3,500 more rules every single year. We 
have a million rules on the books today. None of them have been 
approved by the elected Members of Congress. They are put into 
effect and there is no oversight today.
    Perhaps the way we fix it is in the future, this Congress 
takes back the responsibility to actually make sure the rules 
being put in place follow the guidelines and understanding and 
interpretation of the Congress which passed the rule of the law 
in the first place.
    I really do believe that is what this is all about.
    Senator Cardin. Would my colleague yield?
    Senator Rounds. I would.
    Senator Cardin. I appreciate your comments because I think 
many of us share the responsibility we have in Congress to 
oversee agencies. I take that very, very seriously.
    The challenge is that we do not have the same capacity to 
do the scientific peer reviews that the agency does to use best 
science, to do all that is implied in the Clean Water Act. That 
was always the intent of Congress, that it be based upon 
science, that there be scientific peer-reviewed data used and 
cost analyses must be done. All that must be done. It is done 
by the agency. We should be oversighting that. I agree with 
you, but how do we proceed if they cannot get a regulation 
done?
    Senator Rounds. Mr. Chairman, if I could, the Science 
Advisory Board was designed to actually address the issues as 
presented to them not only by the agency but also by this 
committee. If you take a look at the GAO report, which was just 
done and completed and passed out, it suggests very strongly 
that they are not being asked for those analyses in terms of 
what the costs are today.
    Not only should the agency take into account what the 
Science Advisory Board could do if requested, but then it 
should be shared with us as to whether they came up with the 
analysis of what the actual costs are. I do not believe that is 
occurring right now.
    I understand the need for good rules. I still think the 
elected officials in this Country should have the ability to 
look back, review and do the oversight on a regular and ongoing 
basis of what those rules should look like when they are 
implemented so that the laws put in place today, when they are 
implemented correctly, follow the spirit and the intent of the 
law itself.
    I do not believe the rules being put in place today 
necessarily do that or that we have the system in place right 
now that effectively oversees that implementation. Until such 
time as that occurs, the only way we have to stop a bad law or 
bad rule from going into effect is to literally pass an act by 
Congress.
    That is what we are trying to do today, to replace and say, 
we have seen the rules that you are putting in place, we see 
what you are trying to do, and we disagree. If we disagree, 
then we will rewrite a part of the law or amend the law so that 
you cannot do what you are trying to do or what you 
misunderstand our intent was in the first place.
    Senator Boxer. Mr. Chairman, may I be heard?
    Senator Inhofe. Senator Boxer.
    Senator Boxer. I really trust my friend and believe he is 
here for the right reason, to do the right thing. But I just 
want to say the way it works or the way it should work is when 
Congress passes a law and it is overwhelmingly passed by 
Republicans, that was 1972, the Clean Water Act, then it is 
overwhelmingly reauthorized in 1987, and the agencies carried 
out, in this case it is the Army Corps and the EPA carried out, 
we do our oversight but we should not be tearing apart the 
Clean Water Act.
    I will tell you this. The check and balance lies with the 
courts. There is no doubt about it. We have seen business sue 
on one hand, we have seen environmental groups sue and the 
courts have looked at this.
    This bill rips the heart out of the rule and frankly, out 
of the Clean Water Act. As Senator Cardin so beautifully stated 
in his opening amendment, which we said let us at least restore 
that. We could not even get that vote here.
    I want to say this. I hope you will vote for this. The fact 
is EPA approval among the American people is about 70 percent. 
Our approval is 19 percent. As much as my friend would like to 
see Congress trump the EPA, the American people know in their 
heart of hearts.
    They do not want this to be about politics or are we voting 
for the polluters or are we voting for special interests. They 
want the EPA and the Army Corps. Even when you look at the 
polling done around this, the Corps overwhelmingly, on this 
particular rule, they trust the Corps 72 percent and trust us 
25 percent on this rule, and EPA well over 60 percent.
    My view is for all the talk about how wonderful we are, we 
all have egos and know we are here for the right reasons and I 
do not question that. We work hard and want to do the right 
thing. The American people say, get out of the way here, have 
the EPA and the Corps protect our waters.
    That does not mean everything they do is right but this 
rips the heart out of the Clean Water Act. We should not be 
doing that. If I could say, this is a low point for me 
personally in this committee.
    I have seen us argue about a lot of things but I do not see 
why we are doing this and I think it is sad. I would go so far 
as to say I do not think this will ever become law. I do not 
know anymore. I do not think it will, just judging from the 
votes we are having here.
    In any event, I do not doubt my friend's intentions in any 
way but I do think we are ripping the heart out of a bill that 
is a landmark bill which has separated this Country from a lot 
of other countries and has done a great job for 40 years. We 
are messing with it and that is a sad day for the Environment 
Committee.
    Senator Inhofe. Thank you, Senator Boxer.
    Let me take the Chair's prerogative. It has been stated 
twice in the record in this meeting how overwhelmingly popular 
the Corps of Engineers and the Administrator and this 
Administration is.
    Let me remind you that 60 percent of the responses during 
the comment period of this regulation were negative. I have 
never seen it that high. That is very negative.
    The second thing is, you are right when you say we pass 
laws and we have oversight. We have different Administrations 
that come along and not always the same Administrator of the 
EPA, not always the same Corps of Engineers. In fact, they 
reflect the philosophy of the Administration.
    If you think we are all that unpopular and they are that 
popular, I would invite you to come to Oklahoma. I would 
suggest that Senator Fischer, who had a field hearing in 
Nebraska, would probably agree with what I just said.
    Senator Barrasso. Mr. Chairman?
    Senator Inhofe. Senator Barrasso.
    Senator Barrasso. If I may add to the points you raised, 
Senator Boxer appropriately talks about a law passed in 1972 
and reauthorized in 1987. This is 2015. She talks about those 
who support the EPA. Let me tell you what was in the Washington 
Post on Monday, June 8.
    I would imagine most Americans who read this story would 
not support this agency where the headline is Discipline at EPA 
Lax, Watchdog Says. ``The Environmental Protection Agency is 
creating a festering culture of complacency by dragging its 
feet on actions against employee misconduct, the agency's 
watchdog found, employees watching pornography on government 
computers.'' This is under Gina McCarthy and there is a picture 
of Gina McCarthy there.
    ``Employees watching pornography on government computers 
and a senior executive who looked the other way while an 
employee faked a timesheet and a senior employee who took 
another paying job while on the Federal clock'' are some of the 
examples the Inspector General cited last week.
    In the realm of fraud and abuse, the Inspector General 
cited a need for better management oversight and prompt action 
against employees guilty of misconduct. The EPA, they say, is 
not using the tools it has to take action against employees who 
break the rules.
    Investigators cited examples of wrongdoing that were no-
brainers for quick punishment, this is under Gina McCarthy, but 
were handled instead by a laissez-faire approach. Two 
employees, each earning $120,000 a year, watching pornography 
on the job, were put on paid administrative leave for almost a 
year before anyone tried to fire them.
    One case was discovered in November 2013, when Gina 
McCarthy was Director of the EPA and another was in May 2014. 
It took until March 2015 for the agency to move to fire them. 
One employee retired. The other remains on paid leave while 
appealing the decision. I do not believe the American people 
aware of this would be supportive of an agency under the 
direction of Gina McCarthy.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Barrasso.
    Senator Boxer. Mr. Chairman, since this is about my 
amendment and it has gotten a little bit off track, I do not 
know what someone watching pornography, which is outrageous, 
has to do with that. A person should be fired, fined and maybe 
jailed, I do not know the details, but what does that have to 
do with making sure that when people turn on the tap water and 
they have a drink, they do not get sick from some chemical 
toxin in the water?
    We could talk about lots of other things in the news that 
you would not want me to bring up. Let us not go there.
    I urge an aye vote. I want to have a roll call on this.
    Senator Inhofe. Boxer Amendment No. 5 is before us. There 
has been a motion. Is there a second?
    Senator Cardin. Second.
    Senator Inhofe. A roll call has been requested. The Clerk 
will call the roll.
    The Clerk. Mr. Barrasso?
    Senator Barrasso. No.
    The Clerk. Mr. Booker?
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Boozman?
    Senator Boozman. No.
    The Clerk. Mrs. Boxer?
    Senator Boxer. Aye.
    The Clerk. Mrs. Capito?
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Cardin?
    Senator Cardin. Aye.
    The Clerk. Mr. Carper?
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Crapo?
    Senator Crapo. No.
    The Clerk. Mrs. Fischer?
    Senator Fischer. No.
    The Clerk. Mrs. Gillibrand?
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Markey?
    Senator Markey. Aye.
    The Clerk. Mr. Merkley?
    Senator Merkley. Aye.
    The Clerk. Mr. Rounds?
    Senator Rounds. No.
    The Clerk. Mr. Sanders?
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Sessions?
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Sullivan?
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Vitter?
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Whitehouse?
    Senator Whitehouse. Aye.
    The Clerk. Mr. Wicker?
    Senator Wicker. No.
    The Clerk. Mr. Chairman?
    Senator Inhofe. No.
    The Clerk. The yeas are 9 and the nays are 11.
    Senator Inhofe. The motion is not carried.
    Are there other amendments?
    Senator Markey.
    Senator Markey. Thank you, Mr. Chairman.
    I have an amendment at the desk, Markey Amendment No. 1.
    Senator Inhofe. Markey Amendment No. 1. Senator Markey.

          OPENING STATEMENT OF HON. EDWARD J. MARKEY, 
          U.S. SENATOR FROM THE STATE OF MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman.
    This amendment intends to focus on public health, only the 
public health aspect of what this bill could undermine. It 
wants to say that there should not be a negative result with 
regard to the drinking water that could ultimately wind up 
poisoning people who drink it.
    The new EPA Clean Water Rule is about clarity, clarity for 
developers, for farmers or city and town managers and 
landowners. The rule was written to clarify ambiguities 
resulting from two Supreme Court decisions on whether some 
types of wetlands are considered to be waters of the United 
States that are subject to the Clean Water Act.
    Since these types of wetlands supply most of the water that 
flows through our rivers, this legal ambiguity means EPA might 
be powerless to protect drinking water sources from pollution 
dumped into wetlands.
    A staggering number of groups actually asked EPA to write 
this rule to clarify the legal ambiguities. These groups 
included steelworkers, manufacturers, road builders, retailers, 
farmers, religious organizations, public health groups, real 
eState developers, miners and oil and natural gas developers. 
In 2013, these groups were joined by 30 Republican Senators who 
sent a letter asking the EPA to write the rule.
    The EPA rule resolves uncertainty and controversy. It 
improves consistent administration of the Act and it clarifies 
the roles of State and Federal Government. More than 800,000 
comments were sent in support of the Clean Water Rule. More 
than 80 percent of the public and small business owners favor 
the protections it provides.
    Where the Clean Water Rule seeks clarity, the bill we are 
considering today would only muddy the waters by introducing 
new ambiguities, ignoring science and creating new pollution 
loopholes in the Clean Water Act. This bill's only solution to 
pollution is confusion. Where EPA's Clean Water Rule will 
reduce litigation, this bill would spawn lawsuits by inventing 
undefinable, unscientific terms which would be impossible to 
administer consistently.
    This bill would strip the protections from wetlands that 
supply drinking water to 117 million Americans. The bill puts 
drinking water at risk for 7 million people in my own State of 
Massachusetts alone. It is this very issue that I am most 
concerned about, the drinking water supply that millions of 
Americans rely on to be clean and safe.
    My amendment is very simple. It merely states that the 
provisions of this bill cannot go into effect if the EPA 
Administrator determines that their implementation is likely to 
increase the probability of exposure to toxic pollutants in 
amounts that could adversely impact the health of people, 
including infants, pregnant women and the elderly who need a 
source of safe drinking water.
    It is as simple as that. It deals with infants, pregnant 
women and the elderly and the health effects that could, in 
fact, be created because of this bill which is being 
propounded. If you want to keep the ``clean'' in the Clean 
Water Act, then you should vote for my amendment.
    If you do not think the bill before us today is a threat to 
drinking water, then you should also vote for my amendment. I 
urge an aye vote.
    [The text of Markey Amendment No. 1 follows:]
  
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Inhofe. Thank you, Senator Markey.
    I would respond that as I have looked at this, it looks 
like the EPA could vacate the bill by making a spurious 
determination. I think after the comments made by Senator 
Barrasso, I am not sure I want to have those individuals making 
those spurious determinations, so I would oppose the amendment.
    Do others want to be heard? If not, Markey Amendment No. 1 
is before us. Is there a motion?
    Senator Markey. I would ask for a roll call.
    Senator Inhofe. There is a motion and second and a roll 
call has been requested. The Clerk will call the roll.
    The Clerk. Mr. Barrasso?
    Senator Barrasso. No.
    The Clerk. Mr. Booker?
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Boozman?
    Senator Inhofe. No by proxy.
    The Clerk. Mrs. Boxer?
    Senator Boxer. Aye.
    The Clerk. Mrs. Capito?
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Cardin?
    Senator Cardin. Aye.
    The Clerk. Mr. Carper?
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Crapo?
    Senator Crapo. No.
    The Clerk. Mrs. Fischer?
    Senator Fischer. No.
    The Clerk. Mrs. Gillibrand?
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Markey?
    Senator Markey. Aye.
    The Clerk. Mr. Merkley?
    Senator Merkley. Aye.
    The Clerk. Mr. Rounds?
    Senator Rounds. No.
    The Clerk. Mr. Sanders?
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Sessions?
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Sullivan?
    Senator Sullivan. No.
    The Clerk. Mr. Vitter?
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Whitehouse?
    Senator Whitehouse. Aye.
    The Clerk. Mr. Wicker?
    Senator Wicker. No.
    The Clerk. Mr. Chairman?
    Senator Inhofe. No.
    The Clerk. The yeas are 9 and the nays are 11.
    Senator Inhofe. The motion is defeated.
    Are there other amendments? Senator Boxer?
    Senator Boxer. I have my last amendment.
    I just want to say that it is very sad to paint the 
employees of the EPA with the brush of one individual or even a 
small group who were doing terrible things, just like it would 
be bad to paint all of us because some leader in the Congress 
also has a bad past.
    Let us not do that. It is wrong. It is just plain wrong. I 
feel for those people who come to work every day whether it is 
the Army Corps or the EPA and come there for the right reasons, 
to do the right thing, to protect drinking water, to protect 
the vulnerable populations.
    Let us not paint Gina McCarthy with this brush or anybody 
else. It is a disgrace to do it. It is awful to do it. It is 
wrong to do it.
    I call up my Amendment No. 6. The amendment says the bill 
is null and void if EPA or the Corps, who I would remind 
everyone have multiple times more approval among the people 
than we do, if they determine that implementation of the bill 
would increase pollution or increase costs incurred by the 
States.
    Remember unfunded mandates? This bill could very well lead 
to unfunded mandates. This bill could. Also, it could lead, and 
will lead, if it does ever become law, I believe to increased 
pollution because there are going to be so many streams, rivers 
and bodies of water that are exempted that will then dump 
pollution into drinking water and dump pollution into 
recreational streams and rivers.
    Over 40 environmental law professors who write and teach 
about the Clean Water Act have said S. 1140 would constitute a 
massive weakening of the Clean Water Act. Let us be clear what 
this is. You can hide behind attacks on the EPA, attacks on the 
Army Corps all you want but what you are doing is a backdoor 
repeal of the Clean Water Act with huge carveouts. This is what 
they write, that it could be argued to exclude vast swaths of 
currently protected water.
    The bill will dramatically narrow the scope of the Clean 
Water Act, allowing uncontrolled pollution and placing an 
extraordinary burden on our States because EPA will be absent, 
the Corps will be absent.
    Trust me, I have been in local government. When someone 
gets sick, they knock on your door and that is your problem and 
you will not be able to call on the EPA or the Army Corps to 
help because they will be excluded from this.
    This amendment, my amendment, my last one, ensures that the 
bill will not undermine the basic goals of protections of the 
Clean Water Act which prevent pollution. The amendment makes 
sure that the bill will not place all of the burden for 
protecting our waterways on the States and require them to 
shoulder the costs.
    I would hope we would have at least one or two people from 
the other side, who constantly lecture us about how we do not 
want to put more costs and burdens on the States, would vote 
for this.
    If you oppose increasing pollution in our Nation's 
waterways and if you oppose putting greater burdens on the 
States, I urge a yes vote on this amendment. I would move it.
    [The text of Boxer Amendment No. 6 follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Senator Inhofe. Thank you, Senator Boxer.
    I would only respond the same as I did to the last one, 
that the EPA could vacate the bill by making a spurious 
decision and I would oppose this amendment.
    Do others want to be heard? Senator Rounds.
    Senator Rounds. Thank you, Mr. Chairman.
    Once again, I think we have come down to the heart of what 
many of us see as one of the major problems with the way the 
Federal regulatory process works today. Not only would this 
amendment suggest that the EPA could overturn a congressionally 
determined law by their own determination but in this 
particular case, it even goes farther in that it suggests that 
we would be addressing surface waters of the individual States.
    Once again, we may think that being elected as Members of 
Congress we should make all of the determinations for every 
level of government. I think it is about time that we decide 
that if we wanted to be school board members or if we want to 
dictate what happens in our local schools, we ought to be on 
the school board.
    At the same time, if we want to make determinations about 
surface waters in the States, that would be back at the 
legislative level in the States. Not all good advice from us is 
necessarily good law that should be dumped back on the local 
levels.
    With all due respect to the Ranking Member, I really think 
there are responsible individuals at the State level just like 
there are responsible individuals at the Federal level. With 
Congress suggesting that we could allow a Federal bureaucracy 
or an administrator to make a determination as to our intent 
and then to overturn a law passed by this Congress goes to the 
very heart of what is wrong with Washington, DC. today.
    I really think this is the heart of the problem that we 
have when we talk about the Environmental Protection Agency and 
their impact at the local level where it appears as though we 
think we at the Federal level know everything there is to know 
about what is going on at the State level and that we should 
assert the responsibilities which rightly belong to the States 
where there are good people who care just as much about quality 
water as we do.
    Senator Inhofe. Senator Cardin?
    Senator Cardin. First of all, I think Senator Rounds raises 
many very important points but I think there is some 
fundamental misunderstanding as to what our appropriate role 
should be, what a Federal agency's appropriate role should be, 
and how we should interact with the States.
    I have heard complaints that there have been too many 
regulations issued and the number of regulations. Congress 
passes laws. They are well intended. We want clean water. We 
want clean air. That was not controversial among the Democrats 
and Republicans because the public understands that clean water 
and clean air is not controlled by one State, that you need to 
have a Federal policy on how you are going to get clean water.
    The water that is going to end up in the tap when I turn it 
on in Baltimore may very well have come through West Virginia. 
They understand that we have to deal with the water of the 
Nation. That is why we passed the Clean Water Act.
    We are not scientists, we are not capable of developing all 
of the implementing regulations, so we asked the agency to do 
that. We give them certain direction on how that is going to be 
done. We are pretty clear about that and the type of reviews 
they have to go through, including scientific reviews, costs 
analyses, and complying with what Congress sets up as the 
goals. We have already gone through some of that.
    Senator Boxer's amendment is pretty clear in what it says. 
It says ``cause or contribute to the impairment of surface or 
coastal waters of the States.'' They have to make that 
determination.
    We have seen court decisions when the agencies go beyond 
what Congress says they can do. We have court oversight and we 
should have congressional oversight. I agree with Senator 
Rounds.
    I think one of the most important responsibilities of this 
committee and every committee of Congress is to oversight the 
laws on the books rather than always looking to create new 
laws. I think that is very important. If we have to change or 
eliminate laws, we need to do that. I agree with you on that. 
That is our responsibility.
    However, do not say we are not going to let agencies carry 
out their responsibilities because they are not complying with 
the will of Congress. If we do not think we are clear about 
what we say, let us say it clearer. We cannot be the 
implementing agency.
    Part of what I find frustrating is the fact there happens 
to be a Democrat sitting in the White House. I had to say that 
because I think that is part of the problem we are confronting 
today, that we do not believe an agency will carry out what I, 
as an individual member believe they should, even though the 
law says something different than what I believe as an 
individual member of the Senate.
    I am not questioning anyone's motives. Believe me, I am 
not. The collective wisdom of the Congress of the United States 
said we want clean water. It is up to the Environmental 
Protection Agency and the Army Corps to carry out those 
directives.
    Yes, we can be clearer in those directions and we should be 
clearer. We can have the agency here for oversight hearings to 
make sure they are carrying out what we believe the intent 
should be.
    Members of the committee, we have been debating this issue 
for over a decade under both Democratic and Republican 
Administrations. If this bill becomes law, we are back to the 
drawing board and we have the same ambiguity, the same case by 
case determinations which our stakeholders do not want because 
we have not been able to figure out how Congress needs to 
interact with the agency on a review. Do not blame the agency, 
it is our responsibility.
    The Boxer Amendment is a directive to what they must do. 
They cannot just say we are going to overturn the rules of 
Congress. They have to comply with the language we put in the 
statute or anyone can take them to court, as they have taken 
them to court. They have taken them to the Supreme Court of the 
United States with, by the way, decisions that had additional 
ambiguity that only Congress can clarify.
    Yet we are not trying to clarify it and now we are blocking 
the Administration from trying to give some clarity to the 
stakeholders and protect what Congress said is the mandate of 
clean water for the United States.
    I understand Senator Rounds' frustration. We are all 
frustrated by this. I hope together this committee can carry 
out its most fundamental responsibility of oversight. That is 
what we need to do.
    You are going to have my support and I think all of us want 
to make sure that the agency is carrying out what Congress 
said, not what I would like Congress to have said, but what 
Congress has said and carry it out in the most cost effective 
way. On that, we would be together.
    In the meantime, I am afraid if this bill became law 
without some of the amendments we have offered, what we are 
doing is basically failing to carry out our responsibility in 
Congress.
    Senator Boxer. Mr. Chairman?
    Senator Inhofe. Senator Boxer.
    Senator Boxer. Thank you.
    I urge an aye vote but I really want to say how important I 
think this debate has been. It has been done with respect for 
each other.
    I hope anyone who has watched this understands how 
breathtakingly different it is now than it used to be when it 
comes to environmental protection. I will prove it by putting a 
letter in the record in a minute.
    We have always felt, all through history until this moment, 
that when it comes to our drinking water, Republicans and 
Democrats have agreed that no matter where you live, your child 
should have safe drinking water and your elderly grandmother 
should have it. Everybody should have it. It is an American 
value.
    Now, all of a sudden, wait a minute, I hear voices here 
which are sincere. We do not know everything. Of course, we do 
not know everything but I know one thing. I think a child in 
Arkansas, Alaska, California, Maryland or any one of our States 
deserves to be protected.
    I would unanimous consent to place in the record this 
incredible letter. I do not know how my staff found it but they 
did. It is from the very first and the fifth Administrator of 
the EPA under both Nixon and Reagan. Ronald Reagan, I would say 
is the hero of the Republicans. I always hear him being praised 
up and down.
    Listen to this. This is Ruckelshaus who wrote this in 2007. 
``Broad Clean Water Act jurisdiction is not only necessary to 
clean up the Nation's waters, it is necessary to ensure that 
the responsibility for maintaining and restoring clean water is 
shared equitably throughout the watershed and from State to 
State.
    ``In passing the Clean Water Act, Congress recognized that 
the State-by-State approach to water pollution control had 
failed and that it was necessary to maintain a Federal floor 
for water pollution control to ensure that discharges in one 
State do not jeopardize water quality in another.''
    I would like to put that in the record.
    Senator Inhofe. Without objection.
    [The referenced information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Boxer. I will conclude with this point.
    All this talk about the States know better. I love my 
Governor and I love my State and they are great. We work 
together on things. They want a strong highway bill. There my 
Chairman agrees, we work hand and glove.
    We have a Federal Highway Trust Fund and there are some in 
the Republican Party who want to do devolution and have no role 
for the Federal Government. I hope we do not have it on this 
committee. We will find out when we bring forward our bill.
    Look at Texas. They are always talking about Texas is 
alone, we do not need anyone else. The minute they had the 
floods, President Obama, please declare an emergency. We have 
to work together. There have to be values.
    We have one Department of Defense. There are reasons. 
Dwight Eisenhower, another great man, said that you cannot have 
defense if you do not have a system of highways. Here we have 
the first EPA Administrator who was there again later, a proud 
Republican, saying State-by-State approach to water quality has 
failed.
    It is a breathtaking change in the parties. I am shocked 
about it. I never cease to be shocked about it but it is the 
evolution of the parties. I am sad about it because I think the 
people will suffer and people will be hurt if this legislation 
were to pass because as I said, so many waterways would be 
exempted that we would have more people getting sick.
    I do not think this will pass. I hope the American people 
will engage.
    By the way, on the comments, there are different ways to 
look at the comments. Some ways to look at the comments is the 
way my friend portrayed it. Others are that more than 80 
percent of the comments were positive on the rule.
    Be that as it may, this is our turn to be heard. I think we 
all have been heard. I hope we will have an aye vote for this 
so we can take a stand against more State costs and a stand to 
protect the people from pollution.
    Senator Inhofe. Senator Sullivan, I am going to ask a favor 
of you because I am getting a little concerned that we are 
getting down to the 11 quorum that we have to have to pass 
this. After we pass the bill and before we do the technical, 
which has to be done also, at that point, I would like to 
recognize you because I know of something you want to say that 
is pertinent to this and get some results from the counsel. Is 
that acceptable with you?
    Senator Sullivan. Yes, Mr. Chairman.
    Senator Inhofe. It would be right after the vote. We will 
still be in session.
    Senator Sullivan. Thank you.
    Senator Boxer. I move the amendment.
    Senator Inhofe. Before you move the amendment, do others 
want to be heard?
    Senator Sullivan. I would like to respond. We can vote now.
    Senator Inhofe. You will get a chance to do that.
    First of all, on Boxer Amendment No. 6, is there a motion?
    Senator Boxer. Move the amendment.
    Senator Inhofe. Is there a second?
    Senator Cardin. Second.
    Senator Boxer. Request a roll call.
    Senator Inhofe. A roll call has been requested. The Clerk 
will call the roll.
    The Clerk. Mr. Barrasso?
    Senator Barrasso. No.
    The Clerk. Mr. Booker?
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Boozman?
    Senator Boozman. No.
    The Clerk. Mrs. Boxer?
    Senator Boxer. Aye.
    The Clerk. Mrs. Capito?
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Cardin?
    Senator Cardin. Aye.
    The Clerk. Mr. Carper?
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Crapo?
    Senator Inhofe. No by proxy.
    The Clerk. Mrs. Fischer?
    Senator Fischer. No.
    The Clerk. Mrs. Gillibrand?
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Markey?
    Senator Markey. Aye.
    The Clerk. Mr. Merkley?
    Senator Merkley. Aye.
    The Clerk. Mr. Rounds?
    Senator Rounds. No.
    The Clerk. Mr. Sanders?
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Sessions?
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Sullivan?
    Senator Sullivan. No.
    The Clerk. Mr. Vitter?
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Whitehouse?
    Senator Whitehouse. Aye.
    The Clerk. Mr. Wicker?
    Senator Wicker. No.
    The Clerk. Mr. Chairman?
    Senator Inhofe. No.
    The Clerk. The yeas are 9 and the nays are 11.
    Senator Inhofe. Thank you. The amendment is not agreed to.
    Seeing no further members wishing to seek recognition to 
offer amendments, I move to accept the Manager's Amendment to 
S. 1140 and report the legislation to the Senate. Is there a 
second?
    Senator Wicker. Second.
    Senator Inhofe. We will request a roll call. The Clerk will 
call the roll.
    The Clerk. Mr. Barrasso?
    Senator Barrasso. Aye.
    The Clerk. Mr. Booker?
    Senator Boxer. No by proxy.
    The Clerk. Mr. Boozman?
    Senator Boozman. Yes.
    The Clerk. Mrs. Boxer?
    Senator Boxer. No.
    The Clerk. Mrs. Capito?
    Senator Inhofe. Aye by proxy.
    The Clerk. Mr. Cardin?
    Senator Cardin. No.
    The Clerk. Mr. Carper?
    Senator Boxer. No by proxy.
    The Clerk. Mr. Crapo?
    Senator Inhofe. Aye by proxy.
    The Clerk. Mrs. Fischer?
    Senator Fischer. Aye.
    The Clerk. Mrs. Gillibrand?
    Senator Boxer. No by proxy.
    The Clerk. Mr. Markey?
    Senator Markey. No.
    The Clerk. Mr. Merkley?
    Senator Merkley. No.
    The Clerk. Mr. Rounds?
    Senator Rounds. Aye.
    The Clerk. Mr. Sanders?
    Senator Boxer. No by proxy.
    The Clerk. Mr. Sessions?
    Senator Inhofe. Aye by proxy.
    The Clerk. Mr. Sullivan?
    Senator Sullivan. Aye.
    The Clerk. Mr. Vitter?
    Senator Inhofe. Aye by proxy.
    The Clerk. Mr. Whitehouse?
    Senator Boxer. No by proxy.
    The Clerk. Mr. Wicker?
    Senator Wicker. Aye.
    The Clerk. Mr. Chairman?
    Senator Inhofe. Aye.
    The Clerk. Mr. Chairman, the yeas are 11 and the nays are 
9.
    Senator Inhofe. The ayes have it and the legislation is 
favorably reported to the Senate. Before we do our motion on 
the technical corrections, I would like to recognize Senator 
Sullivan.
    Senator Sullivan. Thank you, Mr. Chairman.
    I have a quick question for counsel. Under Section 4(b)(3) 
of the introduced bill, it states that the terms ``waters of 
the United States'' under the Clean Water Act should not 
include ``water that is located below the surface of the land 
including soil and groundwater.''
    Does this reference to soil and water include water in 
permafrost and water in the saturated soils that lie above 
permafrost?
    Staff. Yes, Senator, it does.
    Senator Sullivan. Thank you. Thank you for that 
clarification.
    Mr. Chairman, if it is OK, I just wanted to respond very 
briefly. I think this has been a very good debate as Senator 
Boxer mentioned. I think there are a number of us, Senator 
Cardin mentioned there is some frustration, and I would agree 
with that.
    We all certainly want clean water. My city in Anchorage 
gets awards almost every year for having some of the cleanest, 
if not the cleanest water, in the United States. It is in large 
measure due to the local and State authorities who make it that 
way.
    We also want to protect the Constitution and the separation 
of powers and Federal overreach. One of the frustrations we 
have had that has been the motivation behind this bill, again I 
agree with Senator Boxer, there are many great employees at the 
EPA but they have been acting in a way that exceeds their 
authority. This is not just hypothetical.
    There was a lawsuit last year, Utility Air Regulator Group 
v. EPA, where the Supreme Court said something in very similar 
situation, the EPA issued a regulation under the Clean Air Act. 
Many opposed that. I was Attorney General of the State of 
Alaska and opposed that. They said the EPA did not have the 
authority to do that, it was expanding its jurisdiction.
    The Supreme Court said the only body that can expand the 
EPA's jurisdiction is this body. That is what they are trying 
to do with their ``waters of the U.S.'' reg, expand their 
jurisdiction. No one, I believe on either side of the aisle, 
thinks the EPA has the authority to expand its own 
jurisdiction. That is the crux of the issue.
    Let me give you one sense on the frustration of oversight. 
The EPA Administrator has sat before this committee a number of 
times. I have asked her a simple question, can you provide the 
legal basis, the legal opinion under the Clean Water Act that 
gives you the justification for this rule? It is simple. That 
is oversight. She has never responded, never responded.
    When you get blown off like that in terms of oversight, I 
think it is exactly the prerogative of the Congress to clarify 
what the law is and say where and when they do not have the 
authority. That is why I think this is a very important bill.
    They need to respond to oversight. When they do not do it, 
we need to act. In this case, they will not even provide the 
Congress, this committee, an opinion that says here is our 
authority under the Clean Water Act to issue this regulation, 
to issue this rule. They have never responded. That is 
outrageous. She needs to respond to this committee.
    It is a simple request. It is oversight. It is us doing our 
job. They need to do their job by responding.
    Thank you, Mr. Chairman.
    Senator Boxer. Mr. Chairman?
    Senator Inhofe. Senator Boxer.
    Senator Boxer. I agree that we have a right to have our 
questions answered. I will work with you on that, absolutely. 
There is no doubt in my mind.
    I would urge you to take a look at all the court cases in 
totality that the EPA has won and lost. I would argue if you 
look at the Supreme Court, they have mostly won. I would argue 
when environmental groups push the EPA, because they are not 
doing enough, the environmental groups win.
    I think it is worthwhile to take a look at these cases. I 
would say again, the honesty here in this committee today, I 
commend. I really do. We heard today the true heart and soul of 
members on both sides. It is an unbelievable change. The people 
have to understand it.
    I will continue as long as I am sitting here and it will be 
next to my Chairman until I go on to do other work, a lot of it 
will probably be a continuation of the work I have done, but I 
will continue to point out where I think we can come together 
and not be so separated on this issue of protecting our people.
    None of us wants a child to get sick. But the bottom line, 
let us recognize what you say in the name of deregulation and 
our authority over their authority, at the end of the day, what 
are we doing? Are we making our people safer or are we not?
    To me that is the reason I am here, to make sure people are 
protected. This is totally different, whether it is taking the 
fight to ISIS, which I want to do, not with our combat boots on 
the ground I might add, but taking the fight to them and also 
making sure that when our kids drink the water, they are safe 
or when they swim.
    I read recently, where was it, in Ohio where that child got 
sick in the last couple of years, got sick swimming because the 
waters had gotten so warm there were all kinds of toxins there 
that were not usually there. I think it was Lake Havasu. Am I 
right? Yes.
    What we do here regardless if it is at a peak that no one 
answered our letter, and I agree that is wrong, or at a peak 
because we are more important than the EPA and more important 
than the Corps and all that, OK.
    To me the most important thing is that our people are 
protected. Today, we took a giant step backward on that front, 
a giant step. I do not care what the bill is called. We have a 
tendency here of giving these bills beautiful names. What is 
this one called, the Federal Water Quality Protection Act? It 
is not about that.
    Let us look past the title. We have beautiful titles for 
bills but they are really not beautiful bills.
    Senator Cardin. Mr. Chairman?
    Senator Inhofe. Just a minute, Senator Cardin.
    Let me respond to that first and then we have one member 
who has not been here who may want to be heard. Do you want to 
be heard? She does not.
    Let me repeat. We have said many, many times, the 
Republicans want clean water, we want our kids to drink clean 
water and we are going to be doing all we can.
    The Republican Party and the parties have not really 
changed. You talked about Ruckelshaus. It happened during that 
time there were EPA Administrators and others who were not 
abusing people on the outside. That is not true today. It is 
our job in oversight to be responsible to their needs.
    Without objection, I am going to enter into the record the 
Monday, June 8 Washington Times referred to by Senator 
Barrasso.
    [The referenced information was not received at time of 
print.]
    Senator Inhofe. Do others want to be heard?
    Senator Boxer. Mr. Chairman, may I correct myself? I made a 
mistake. I have to correct the name of the lake. Is that OK?
    Senator Inhofe. Sure.
    Senator Boxer. Lake Havasu is in Arizona. On Trip Advisor, 
it says ``Visitors to Lake Havasu beaches not told of killer 
parasite in the lake.'' I was wrong on the State. There was an 
incident in Ohio.
    My point is all of what we do really does have implications 
for people.
    Senator Cardin. Mr. Chairman, very quickly, I want to 
respond to Senator Sullivan's point because I agree with 
Senator Boxer. There should be no disagreement on our committee 
that any reasonable request be honored by any member of our 
committee and certainly by our committee for information. I 
certainly support that.
    I wanted to point out on the constitutional issues that 
there are three branches of government, not two, not just the 
Executive and the Congress. We also have the Judicial Branch.
    In regard to these rules, we were operating, I think, with 
a clear understanding prior to the Swank and Rapanos decisions 
of the Supreme Court. It was the Rapanos decisions that told 
Congress the agency had to clarify the waters of the U.S. That 
threw in the uncertainty which is the Supreme Court interprets 
the laws.
    Either Congress or the agencies had to respond to the 
Rapanos decision and that is what we have been wrestling with 
ever since that Supreme Court decision came down. I thought I 
would just point that out. There are not just two branches of 
government. There are three branches of government involved in 
us trying to clarify the waters of the U.S.
    Senator Inhofe. Thank you for that clarification.
    I ask unanimous consent that staff have the authority to 
make technical and conforming changes to the measure approved 
today. Without objection, so ordered.
    We are adjourned.
    [Whereupon, at 11:04 a.m., the committee was adjourned.]

                                 [all]
</pre></body></html>
